CERTIFICATE OF SERVICE
Nos. 19-840, 19-1019
In the Supreme Court of the United States
STATE OF CALIFORNIA, ET AL.,
Petitioners,
v.
STATE OF TEXAS, ET AL.,
Respondents.
STATE OF TEXAS, ET AL.,
Petitioner,
v.
STATE OF CALIFORNIA, ET AL.,
Respondents.
I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 12th day of May, 2020, I caused:
(1)

three booklet copies of the Brief of Amicus Curiae Jeremy C. Doerre

Suggesting Reversal to be served by third-party commercial carrier (FedEx) for
delivery within 3 calendar days, and an electronic copy to be served by email, on the
following counsel for the parties:

Noel J. Francisco
Solicitor General, United States
Counsel of Record
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents United States et al.

Certificate of Service, p. 2

(2)

an electronic copy of the Brief of Amicus Curiae Jeremy C. Doerre

Suggesting Reversal to be served by email on the following counsel for the parties,
each of whom has consented to electronic service in accordance with this Court’s
indication in its order of April 15, 2010 that “parties may be relieved of the obligation
to effect service of paper versions of filings upon other parties if they agree to
electronic service” and that “parties are strongly encouraged to use electronic service
if feasible,”:
Samuel Passchier Siegel
Deputy Solicitor General, California
Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
sam.siegel@doj.ca.gov
Counsel for California, et al.

Douglas Neal Letter
General Counsel, U.S. House of Representatives
Counsel of Record
219 Cannon House Office Building
Washington, DC 20515-6532
douglas.letter@mail.house.gov
Counsel for U.S. House of Representatives

Kyle Douglas Hawkins
Solicitor General, Texas
Counsel of Record
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
Counsel for Texas et al.

Certificate of Service, p. 3

Robert Earl Henneke
Counsel of Record
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
rhenneke@texaspolicy.com
Counsel for Respondents Neill Hurley and John Nantz

I further certify that all parties required to be served have been served.
I also certify that on this 12th day of May, 2020, I caused forty copies of this
brief in booklet format, together with one unbound copy on 8.5- x 11- inch paper, to
be sent via a third-party commercial carrier (FedEx) for delivery to the Clerk of this
Court within 3 calendar days.
In addition, this brief has been submitted electronically through the Court’s
electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 12, 2020
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

